APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Sixth Circuit (September 3, 2020) ............... 1a
Judgment of the United States Court of Appeals
for the Sixth Circuit (September 3, 2020) ....... 22a
Memorandum Opinion and Order of the United
States District Court for the Eastern District
of Kentucky Northern Division at Covington
(November 5, 2019) .......................................... 24a
OTHER DOCUMENTS
Tweets. Exhibits from Plaintiff's Complaint ........ 31a
Brief of Plaintiffs-Appellants
(January 29, 2020)............................................ 33a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT
(SEPTEMBER 3, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
JOHN DOES 1–10,

Plaintiffs-Appellants,
v.
DEBRA HAALAND; ELIZABETH WARREN,

Defendants-Appellees.

________________________
No. 19-6347

Appeal from the United States District Court
for the Eastern District of Kentucky at Covington.
No. 2:19-cv-00117—William O. Bertelsman,
District Judge.
Before: CLAY, WHITE, and READLER,
Circuit Judges.
CLAY, Circuit Judge. Plaintiffs, ten unidentified
minors, appeal the district court’s order dismissing
two Defendants, Senator Elizabeth Warren and Representative Debra Haaland, from this defamation suit.
Plaintiffs claim that Senator Warren and Representative Haaland committed libel against them by issuing
a series of tweets in response to a widely publicized

App.2a
incident on the National Mall in which Plaintiffs
were involved. The district court found that Plaintiffs’
defamation claims were barred by sovereign immunity.
For the reasons provided in this opinion, we AFFIRM
the district court’s order.
BACKGROUND
Plaintiffs are ten unnamed minors who, at the
time of the events in question, attended Covington
Catholic High School, a private school in Park Hills,
Kentucky. According to Plaintiffs’ complaint, on January 18, 2019, Plaintiffs joined a larger group of
classmates on a trip to Washington, D.C. to attend
the anti-abortion March for Life. After attending the
demonstration, Plaintiffs gathered near the Lincoln
Memorial to await buses to return to Kentucky. While
there, members of the religious sect known as the
Black Hebrew Israelites allegedly taunted the students
with profane insults. Some of the students purportedly sought permission from chaperones to recite
school cheers to drown out the taunts.
After this interaction, Native American activist
Nathan Phillips approached Plaintiffs. Phillips had
participated in the Indigenous People’s March—a
political rally near the Lincoln Memorial—earlier in
the day. According to Plaintiffs, Phillips “joined the
students as they engaged in school cheers.” R. 34-3,
First Am. Compl., PageID # 429. These cheers included
renditions of the Haka—a traditional Maori dance—
and the “sports chant of the Florida State Seminoles
and the Atlanta Braves, with their famous tomahawk
chop.” Id. at PageID # 429–30. Plaintiffs claim that
in doing so they “joined with Phillips”—who was

App.3a
beating a drum and chanting a traditional Native
American song. Id. at PageID # 429.
A video of Plaintiffs’ interaction with Phillips
was posted online and it swiftly spread. It depicts
Phillips beating his drum and chanting while backed
by a small number of Native American activists who
are in turn surrounded by a larger circle of Covington
students (identifiable by their Covington apparel),
some of whom are also wearing clothing and hats
displaying President Trump’s “Make America Great
Again” campaign slogan. A number of students are
performing the “tomahawk” chop and one student is
standing close to Phillips and staring at him.
Several politicians, journalists, and others with
large social media followings shared versions of the
video as well as articles that discussed it, many with
commentary disapproving of Plaintiffs’ actions.
Numerous other individuals and media outlets also
publicized the video. Plaintiffs complained of severe
online harassment in response to the video’s dissemination, including calls for their physical harm,
expulsion, and for the public disclosure of their identities.
The public statements regarding the video that
are relevant on appeal are those sent by Representative
Debra Haaland and Senator Elizabeth Warren. On
January 19, 2019, Representative Haaland sent a tweet
from her official Congressional Twitter account that
read: “This Veteran [Nathan Phillips] put his life on
the line for our country. The students’ display of
blatant hate, disrespect, and intolerance is a signal of
how common decency has decayed under this administration. Heartbreaking.” Id. at PageID # 465. She
later sent a tweet from her campaign Twitter account

App.4a
that linked to a Huffington Post article about the
incident that included a video interview with Phillips
following his interaction with the students, in which
he stated that they were chanting “build that wall.”
Id. at PageID # 471. Her tweet stated: “A Native
American Vietnam War veteran was seen being
harassed and mocked by a group of MAGA hat-wearing
teens.” Id. Elected in 2018, Representative Haaland
was one of the first Native American women elected
to Congress. According to public reports, she attended
the Indigenous People’s March earlier in the day on
January 18.
On January 19, Senator Elizabeth Warren sent
a tweet from her official Senate Twitter account that
stated “Omaha elder and Vietnam War veteran Nathan
Phillips endured hateful taunts with dignity and
strength, then urged us all to do better. Listen to his
words.” Id. at PageID # 473. This was followed by a
link to a Splinter News article about the incident.
The article shared by Senator Warren also included a
version of the video interview with Phillips in which
he stated that he heard chants of “[b]uild that wall”
from the crowd of Covington students. Sen. Warren’s
Br. at 9 (citing @splinter_news, Twitter (Jan. 19, 2019,
6:18 PM), https://twitter.com/splinter_news/status/
1086764784706560001?lang=en).
On August 1, 2019, eight of the unnamed Plaintiffs
filed suit in Kentucky court against Defendants,
twelve individuals who sent tweets regarding the
incident and Plaintiffs’ participation therein. On August
14, 2019, Plaintiffs filed an amended complaint to
add two more unnamed students as Plaintiffs. Each
Defendant was accused of defamation, intrusion upon
seclusion, and negligent infliction of emotional distress;

App.5a
while one (Kathy Griffin) was further accused of harassment via her online messages. Plaintiffs alleged
that each Defendant made their statements:
[K]nowing they both omitted true facts and
implied false facts, including the false factual
claim the Covington Boys interrupted an
indigenous people’s march, stopped, blocked
and surrounded a native American elder
war veteran for the purposes of taunting,
harassing, and mocking him with chants of
build the wall, aggregating these lies into
public denunciations, calls for public doxing,
and public demands of school expulsion, to
induce public contempt upon the plaintiffs.
R. 34-3, First Am. Compl., PageID # 439. Plaintiffs
asked for damages “in an amount not less than $15,000
but not more than $50,000” per Defendant. Id. at
PageID # 463.
On August 28, 2019, Senator Warren removed the
case to federal district court, citing the Federal Officer
Removal Statute, 28 U.S.C. § 1442(a)(1), as the basis for
removal. Then on September 4, 2019, Senator Warren
filed a motion to dismiss for lack of jurisdiction and
for failure to state a claim on which relief could be
granted. Representative Haaland subsequently filed
her own motion to dismiss. On September 26, 2019,
Plaintiffs filed a motion to remand to state court.
The district court issued an opinion and order in
which it found that removal was proper under the
Federal Officer Removal Statute, denied Plaintiffs’
motion to remand, and granted Senator Warren’s
and Representative Haaland’s motions to dismiss. It
concluded that regardless of whether one agrees with

App.6a
Warren’s and Haaland’s communications, they were
“intended to convey the politicians’ views on matters
of public interest to their constituents.” R. 80, Dist.
Ct. Order, PageID # 1081. Therefore, “the statements
were made within the scope of defendants’ employment
as elected representatives” and they were entitled to
the benefit of sovereign immunity pursuant to 28
U.S.C. § 2679(b)(1). Id. This meant that the United
States was substituted as Defendant in their place.
However, because the United States has not waived
its immunity to libel and slander suits, id. § 2680(h),
the defamation claim could not proceed against the
United States either. With no federal defendants left
before it, the court lacked subject matter jurisdiction
over the action. It then declined to exercise supplemental jurisdiction over Plaintiffs’ state law claims
against the remaining Defendants because those
claims involved “unique issues of state law.” Id. at
PageID # 1082 (citing 28 U.S.C. § 1367(c)). It thus
remanded the remaining claims to state court. This
timely appeal followed.1
DISCUSSION
We review a district court’s order dismissing an
action for lack of subject matter jurisdiction de novo.
See, e.g., Am. Landfill, Inc. v. Stark/Tuscarawas/Wayne
1 On appeal, Plaintiffs do not challenge the district court’s dismissal
of their intrusion upon seclusion and negligent infliction of
emotional distress claims against Defendants. Plaintiffs also fail
to argue that the district court erred in denying their motion to
remand. Consequently, those claims have been forfeited on appeal.
See, e.g., Enertech Elec., Inc. v. Mahoning Cnty. Comm’rs, 85 F.3d
257, 259 (6th Cir. 1996) (holding that issues not raised in an
appellant’s opening brief will not be considered on appeal).

App.7a

Joint Solid Waste Mgmt. Dist., 166 F.3d 835, 837 (6th

Cir. 1999).
I.

Sovereign Immunity

Plaintiffs mistakenly frame Defendants’ claim for
immunity from libel suits as one premised on the
Speech and Debate Clause, which states “for any
Speech or Debate in either House, [Senators and
Representatives] shall not be questioned in any other
Place.” U.S. Const. art. I, § 6, cl. 1. This clause provides Congressmembers a limited form of legislative
immunity from suit. See Gravel v. United States, 408
U.S. 606, 616 (1972) (“It . . . protects Members against
prosecutions that directly impinge upon or threaten
the legislative process.”) However, the clause only
protects speech made in the context of “legislative
activities” and the “legislative process.” See, e.g. ,
Hutchinson v. Proxmire, 443 U.S. 111, 127 (1979)
(holding that the Speech and Debate Clause’s protection
“does not extend beyond what is necessary to preserve
the integrity of the legislative process” (quoting United
States v. Brewster, 408 U.S. 501, 517 (1972))). This
provides meaningful limits on an otherwise broad grant
of immunity.
In the present case, Plaintiffs contend that “[r]esponding to questions about their job [as Congressmembers] has been the only category of claims found
immune from tortious libels outside of legislative
duties or the legislative chamber,” and so Defendants’
tweets are not protected by the Speech and Debate
Clause. Appellants’ Br. at 15. Whatever the merits
of Plaintiffs’ argument, neither Senator Warren nor
Representative Haaland have cited the Speech and
Debate Clause—in either their motions to dismiss

App.8a
below or in their filings before this Court—to demonstrate the lack of federal subject matter jurisdiction
over this action. Consequently, Plaintiffs’ arguments
on this point are irrelevant to the issue presented in
this case.
Instead, Defendants rely on the Federal Tort
Claims Act (FTCA), 28 U.S.C. §§ 1346, 2671 et seq.,
as amended by the Westfall Act, 28 U.S.C. § 2679(b)(1),
to undergird their immunity claim. “The United
States, as sovereign, is immune from suit save as it
consents to be sued, and the terms of its consent to
be sued in any court define that court’s jurisdiction to
entertain the suit.” United States v. Sherwood, 312
U.S. 584, 586 (1941) (citations omitted). The FTCA
waives the United States’ sovereign immunity for
certain torts committed by federal employees while
acting in the scope of their employment. 28 U.S.C.
§§ 1346, 2671 et seq. In general, the FTCA provides
federal district courts exclusive jurisdiction over claims
against the United States for “injury or loss of property, or personal injury or death caused by the negligent or wrongful act or omission” by federal employees acting within the scope of their employment. Id.
§ 1346(b)(1). It does not, however, waive sovereign
immunity for claims “arising out of . . . libel [and]
slander.” Id. § 2680(h).
Prior to 1988 litigants could sue federal tortfeasors
in their individual capacity, subject to specific exceptions created by Congress to protect certain classes of
employees from personal liability. See United States
v. Smith, 499 U.S. 160, 170 & n.11 (1991). In 1988,
Congress abandoned this piecemeal approach and
passed broad legislation to extend the benefit of
sovereign immunity to all federal employees. This law,

App.9a
the Federal Employees Liability Reform and Tort Compensation Act (i.e., the Westfall Act), amended the
FTCA to provide that “[t]he remedy against the United
States provided [in the FTCA] . . . is exclusive of any
other civil action or proceeding for money damages by
reason of the same subject matter against the employee
whose act or omission gave rise to the claim or against
the estate of such employee.” 28 U.S.C. § 2679(b)(1)
(emphasis added); see also Levin v. United States,
568 U.S. 503, 509 (2013) (holding that the Westfall Act
“makes the remedy against the United States under
the FTCA exclusive for torts committed by federal
employees acting within the scope of their employment”).
“Under the Act, the United States shall be substituted for the employee as a defendant in any common
law tort action initiated against an employee if the
employee was acting within the scope of employment.”
Henson v. Nat’l Aeronautics & Space Admin., 14 F.3d
1143, 1147 (6th Cir. 1994). Moreover, as interpreted
by the Supreme Court, the Westfall Act immunizes
individual federal employees even where the FTCA
bars a suit against the United States as well. Smith,
499 U.S. at 166; see also Gutierrez de Martinez v.
Lamagno, 515 U.S. 417, 420 (1995) (“If . . . an exception
to the FTCA shields the United States from suit, the
plaintiff may be left without a tort action against any
party.”).
A. Applicability of the Westfall Act to Members
of Congress
To prevail, Defendants must demonstrate that
members of Congress are protected by the Westfall
Act. They must first show that Congressmembers are

App.10a
“employee[s] of the Government.” 28 U.S.C. § 2679(b)
(1). Plaintiffs contend that “there is zero evidence the
Westfall Act was about Congressmembers at all.” Appellants’ Reply Br. at 6–7.
Although we have not yet considered this issue,
the First Circuit has squarely held that members of
Congress are government employees for purposes of
the FTCA. Operation Rescue Nat’l v. United States,
147 F.3d 68, 70–71 (1st Cir. 1998). The Fifth Circuit
has reached the same conclusion. See Williams v.
United States, 71 F.3d 502, 505 (5th Cir. 1995) (“A
Member of Congress who holds an office in the U.S.
House of Representatives is clearly an employee or
officer of the legislative branch of the federal government.”). We agree with our sister circuits.
The plain text of the FTCA, as amended by the
Westfall Act, compels this interpretation. The statute
provides that “‘[e]mployee of the government’ includes
. . . officers or employees of any federal agency.” 28
U.S.C. § 2671. “[T]he term ‘Federal agency’ includes
the executive departments, the judicial and legislative branches,” and other governmental entities. Id. And
the Supreme Court held in Lamar v. United States,
241 U.S. 103, 111–12 (1916), that a Representative is
“an officer acting under the authority of the United
States” for purposes of a criminal statute that punishes
individuals who “falsely assume or pretend to be an
officer or employee acting under the authority of the
United States.” This was based on several factors,
including common dictionary definitions of the term
“officer,” historical evidence that Representatives have
been consistently considered “legislative officers” or
“civil officer[s],” and prior state and federal precedent
indicating as much. Id. at 113; see also, e.g., The Ku

App.11a

Klux Cases, 110 U.S. 651, 664 (1884) (“[T]he constitution . . . created the office of member of congress.”).
We see no reason why the term “officers” in the
Westfall Act should be construed more narrowly than
the same term in the statute at issue in Lamar,
especially because the Westfall Act specifically expands
sovereign immunity to the entire legislative branch.

Moreover, while contemporary legislative history
from the passage of the Westfall Act does not directly
address this question, as the First Circuit queried
“[w]hy would Congressmen vote to exclude themselves
from a universal grant of immunity given to all others;
to all employees below them; to all officers, up to the
president, above them?” Operation Rescue Nat’l, 147
F.3d at 70–71; see also id. at 71 (“If the Westfall Act
clearly and carefully intended to exclude Congressmen
from the FTCA’s otherwise universal benefits, would
there not have been, at the least, some Congressmen
who would have remonstrated?”); Williams, 71 F.3d
at 505 (“If Congress intended to exclude Members of
Congress from the protection of the FTCA, it could have
expressly done so within the language of the Act.”).
We agree that it is highly unlikely that Congress would
exclude itself, sub silentio, from such a broad grant of
immunity. This conclusion, coupled with the unambiguous text of the statute, makes clear that members of
Congress—Representatives and Senators alike—enjoy
the benefits of the FTCA as amended by the Westfall
Act.
B. Scope of Employment
We turn now to the central question presented
by this appeal: whether Senator Warren and Representative Haaland were acting within the “scope of

App.12a
[their] office or employment” when they sent the
allegedly defamatory tweets. 28 U.S.C. § 2679(b)(1).
If they were, then they are entitled to the protections
of the Westfall Act.2
For purposes of the Westfall Act, “whether the federal employee was acting within the scope of his or
her employment, is governed by the agency law of
the forum state.” Dolan v. United States, 514 F.3d
587, 593 (6th Cir. 2008); see also Henson, 14 F.3d at
1147 (“A determination of whether an employee was
acting within the scope of employment is a question
2 Plaintiffs emphasize that neither Senator Warren nor Representative Haaland have received certification from the Attorney
General (“AG”) that their conduct was within the scope of their
employment. See Gutierrez de Martinez v. Lamagno, 515 U.S.
417, 420 (1995) (observing that the Westfall Act “empowers the
Attorney General to certify that the employee ‘was acting
within the scope of his office or employment at the time of the
incident out of which the claim arose’” and that “[u]pon certification, the employee is dismissed from the action and the
United States is substituted as defendant” (quoting 28 U.S.C.
§ 2679(d)(1))).
It does not appear from the record that either Defendant
sought AG certification prior to filing their motion to dismiss under
the Westfall Act. Regardless, Plaintiffs do not suggest that this
failure to seek AG certification precludes Defendants from prevailing on their theory of sovereign immunity. Instead, all Plaintiffs
request is that we not defer to the district court’s independent
finding that Defendants were within the scope of their employment. See 28 U.S.C. § 2679(d)(3) (empowering district courts to
“to find and certify that the employee was acting within the
scope of his office or employment” upon motion of the employee).
But Plaintiffs are already receiving the most favorable standard
of review they can ask for on appeal because our review of the
district court’s order to dismiss for lack of subject matter jurisdiction is de novo.

App.13a
of law, not fact, made in accordance with the law of
the state where the conduct occurred.”)
In the present case, the forum state is Kentucky
and the conduct—i.e., the allegedly defamatory tweets
—occurred in Kentucky because Plaintiffs live in
Kentucky and the tweets were accessible in that
state. See Williams, 71 F.3d at 506 (finding Texas
law governed scope-of-employment inquiry even though
allegedly
defamatory
interview
occurred
in
Washington, D.C., because plaintiff was domiciled in
Texas and because the interview broadcast occurred
in Texas, “[t]hus, the alleged defamation . . . and any
resulting harm essentially took place in the State of
Texas”); Shrader v. Biddinger, 633 F.3d 1235, 1240
(10th Cir. 2011) (observing that “in a sense, the
internet operates ‘in’ every state regardless of where
the user is physically located”). We therefore apply
Kentucky law to determine whether Defendants were
acting within the scope of their employment.3 Additionally, Plaintiffs only contend that Kentucky law
applies. If Plaintiffs cannot demonstrate that Defend3 This conclusion of course has no bearing on whether Defendants
have sufficient contacts with Kentucky to confer personal jurisdiction on the court. In the context of electronic communications
that inquiry examines factors beyond where, strictly speaking,
the communication is accessible. See Shrader, 633 F.3d at 1240
(“[I]t is necessary to adapt the analysis of personal jurisdiction
to this unique circumstance [of electronic communications] by
placing emphasis on the internet user or site intentionally
directing his/her/its activity or operation at the forum state
rather than just having the activity or operation accessible
there.”). We do not reach the question of personal jurisdiction in
this case, however, because “expedition and sensitivity to state
courts’ coequal stature should impel the federal court to dispose
of [subject matter jurisdiction] first.” Ruhrgas AG v. Marathon
Oil Co., 526 U.S. 574, 587–88 (1999).

App.14a
ants’ conduct was outside their scope of employment
as understood by Kentucky law, then Plaintiffs cannot
prevail in this appeal.
Kentucky law focuses on an employee’s motive
to determine whether she was acting within the
scope of her employment when committing intentional
torts, including libel. The Kentucky Supreme Court
has held that an employee acts within the scope of
his employment when his “purpose, however misguided,
is wholly or in part to further the master’s business.”
Patterson v. Blair, 172 S.W.3d 361, 369 (Ky. 2005)
(quoting W. Page Keeton et al., Prosser and Keeton on
the Law of Torts 500, 505 (5th ed. 1984)). In Patterson
v. Blair, the court concluded that an employee who
shot the tires on the plaintiff’s truck while attempting
to repossess it for his employer was acting within
the scope of his employment. Id. at 372 (“Clearly, in
confronting [plaintiff] and shooting out the truck’s
tires, [the employee] was acting to further the business interests of [his employer]. At the very least, his
conduct was at least incidental to the conduct that
was authorized by [the employer].”); see also Osborne
v. Payne, 31 S.W.3d 911, 915 (Ky. 2000) (“[T]o be
within the scope of its employment, the conduct must
be of the same general nature as that authorized or
incidental to the conduct authorized.”). In Osborne v.
Payne, the Kentucky Supreme Court found that a
priest who engaged in adultery with a married woman
whom he was counseling was not acting within the
scope of his employment. 31 S.W.3d at 915. This
“abuse by the priest of his position. . . exceeds the
scope of his employment” because it was “beyond
question that Osborne was not advancing any cause of

App.15a
the diocese or engaging in behavior appropriate to
the normal scope of his employment.” Id.
Neither Kentucky courts nor this Court have
decided whether statements such as those at issue—
unsolicited comments by elected officials on an event
of widespread public interest—are within the “scope
of employment” of members of Congress. However, outof-circuit precedent involving situations closely aligned
to the facts of this case strongly supports finding that
these tweets were within the scope of Defendants’
employment as officers of the United States.
In Operation Rescue National v. United States,
the First Circuit found that Senator Ted Kennedy
was protected by the Westfall Act when, in the course
of responding to a reporter’s question pertaining to
a bill he was sponsoring that addressed access to
women’s health clinics, he said that anti-abortion
organizations like the plaintiff had a “national policy
[of] firebombing and even murder.” 147 F.3d at 69
(alteration in original). Although the plaintiff did not
appeal the district court’s finding that Senator Kennedy
was acting within the scope of his employment when
he made the remarks, the First Circuit affirmed the
district court’s reasoning “[i]n all respects.” Id. at 71.
The district court applied Massachusetts law, as the
comments were made in Senator Kennedy’s home
state. Operation Rescue Nat’l v. United States, 975
F. Supp. 92, 106 (D. Mass. 1997). Similar to Kentucky,
Massachusetts law looks to see if the employee was
authorized to engage in the conduct complained of
and whether she was acting in the interests of her
employer to determine whether the employee was
acting in the scope of her employment. Id. The district
court found, in relevant part, that because “Senator

App.16a
Kennedy was providing political leadership and a basis
for voters to judge his performance in office—two
activities that public officials are expected, and should
be encouraged, to perform,” his comments were within
the scope of employment. Id. at 108. In this sense,
the Senator’s employer was his constituents and he
served them by fully informing them of his views and
working to pass legislation he believed would benefit
them.
Moreover, in Williams v. United States, the Fifth
Circuit determined whether Congressman Jack Brooks’
allegedly defamatory statements about a lobbyist and
his firm were within the scope of his employment
under Texas’ vicarious liability regime, which, like
Kentucky’s, focuses on whether the employee was
authorized to perform the action complained of and
whether it furthered her employer’s interests. 71
F.3d at 506. Congressman Brooks made the statements in a press interview about Congress’ appropriation of certain federal monies, including funding
for the restoration of a battleship in Texas which the
lobbyist had advocated for. Id. at 504 & n.1. The
court held that the statements were made in the
scope of Congressman Brooks’ employment because
“a primary obligation of a Member of Congress in a
representative democracy is to serve and respond to
his or her constituents.” Id. at 507. His statements,
including the allegedly defamatory ones, were made
in performance of his duty to “inform[] constituents
and the public at large of issues being considered by
Congress.” Id. Consequently, the court held that the
Westfall Act granted Congressman Brooks immunity
from the lobbyist’s defamation suit. Id.

App.17a
Additionally, in Council on American Islamic Relations v. Ballenger, the D.C. Circuit found that a Congressman’s comments to the press on his pending
separation from his wife were within the scope of
his employment because “[a] Member’s ability to do
his job as a legislator effectively is tied, as in this
case, to the Member’s relationship with the public
and in particular his constituents and colleagues in
the Congress.” 444 F.3d 659, 665 (D.C. Cir. 2006). By
commenting on his private life, the Congressman was
seeking to maintain his constituents’ trust in him
and thereby discharge his legislative responsibilities
more effectively. Id. at 665–66.
In the present case, the articles shared by Senator
Warren and Representative Haaland discussed an
interview in which Nathan Phillips recollected hearing
chants of “[b]uild that wall” emanating from the crowd
of students. This reasonably relates the political
subtext of the incident to President Trump’s wellknown campaign promise to build a border wall with
Mexico. As Senator Warren observes, the border wall
was at the time of the incident—January 2019—the
“subject of extensive debate” in Congress, surrounding both the partial government shutdown and pending
legislation. Sen. Warren’s Br. at 23 (citing Fund and
Complete the Border Wall Act, H.R. 85, 116th Cong.
(introduced Jan. 3, 2019); Border Wall Trust Fund
Act, H.R. 200, 116th Cong. (introduced Jan. 3, 2019)).
This context aligns their tweets with Senator
Kennedy’s comments in Operation Rescue and Congressman Brooks’ statements in Williams: each
comment constituted a condemnation of a political
adversary’s public acts. Senator Warren and Representative Haaland were criticizing supporters of

App.18a
President Trump, in part, for their alleged deployment
of a topical and polarizing political issue (i.e., the
border wall) in their purported harassment of Phillips.
Senator Kennedy was criticizing an organization at
odds with the goals of his bill and Congressman Brooks
was criticizing a lobbyist in connection with Congressional appropriations. In each case, the allegedly
defamatory statements were made in the context of
informing constituents of the Congressmembers’ views
and as part of their advocacy—whether for or against—
current legislation. If anything, Senator Kennedy’s
allegations of domestic terrorism and murder were
closer to the outer bounds of his scope of employment
than Senator Warren’s and Representative Haaland’s
less inflammatory tweets. Defendants were reasonably
connecting Plaintiffs’ rhetoric and clothing to President
Trump in order to comment on an event that had
received widespread press attention and that resonated
with the pressing issue of funding for the border
wall.
Plaintiffs respond that the Operation Rescue
National, Williams, and Ballenger cases hinged on the

statements at issue being “in response to press
inquiries, and notably not ‘made gratuitously’ to serve
personal political interests.” See Appellants’ Br. at
28 (citing Operation Rescue Nat’l, 975 F. Supp. at
108). However, it is the act of communicating one’s
views to constituents and not the manner of communication that justifies application of the Westfall Act.
That is, Defendants’ statements are protected whether
they are freestanding or made in response to a press
inquiry. Indeed, Plaintiffs cannot point to language
in the case law that suggests speech is only within
the scope of a Congressmember’s employment when

App.19a
that speech is in response to an interview question.
Instead, the statements at issue in Operation Rescue
National, Williams , and Ballenger were protected
because the media interviews facilitated the kind of
communication with constituents and the general
public that the courts held to be within the scope of
employment.
Far from being gratuitous, these tweets fit within
the “wide range of legitimate ‘errands’ performed for
constituents,” which includes “preparing so-called
‘news letters’ to constituents, news releases, and
speeches delivered outside the Congress.” Brewster,
408 U.S. at 512.4 Senator Warren and Representative Haaland sought to oppose the President and his
legislative goals by putting on record their opposition
to Plaintiffs’ actions. Although the foregoing cases
examining whether similar statements were protected
by the Westfall Act largely preceded the advent of
Twitter, social media websites are the “modern public
square,” Packingham v. North Carolina, 137 S. Ct.
1730, 1737 (2017). There is no meaningful difference
between tweets and the other kinds of public communications between an elected official and their
constituents that have been held to be within the
scope-of-employment under the Westfall Act.
4 Although the Supreme Court held that these “errands” are
not protected by the Speech and Debate Clause because “they
are political in nature rather than legislative,” Brewster, 408
U.S. at 512, the Westfall Act protects more conduct than the
Speech and Debate Clause. Cases like Williams and Ballenger
illustrate that the Westfall Act extends to these sorts of
“political” activities because they are integral to a Congress
member’s duties to communicate with their constituents and
publicly discuss political matters.

App.20a
With this understanding of the scope of a Congressmember’s employment and how tweets can fit
into her duties, we return to Kentucky law. Applying
that law, it is clear that the tweets were made in furtherance of the interests of Defendants’ employers.
See Patterson, 172 S.W.3d at 369. They were calculated
to serve the interests of Defendants’ constituents (i.e.,
employers) by informing them of Defendants’ views
regarding a topical issue and related legislation. This
was accomplished through considerably more appropriate and commonplace means—messages sent via
Twitter—than the attempted repossession via handgun
in Patterson. Yet the Patterson court still found that
firing a gun at a delinquent purchaser’s car was within
the scope of his employment because the violent
conduct was at least incidental to his authorized
work. Id. at 372. The nexus between Defendants’ tweets
and their constituents’ interests in understanding
their views is considerably greater than that.
Moreover, unlike the priest in Osborne, Plaintiffs
were “engaging in behavior appropriate to the normal
scope of [their] employment.” 31 S.W.3d at 915. Congressmembers routinely broadcast their views on
pending legislation and related current events through
press releases, televised speeches, interviews, and,
as in the present case, through social media postings.
Defendants’ statements were made within the scope
of their employment. Therefore, the United States
was properly substituted as Defendant in this case
and the district court correctly dismissed Senator
Warren and Representative Haaland from the suit.
That the United States has not waived its immunity
to libel suits is of no moment. See Gutierrez de
Martinez, 515 U.S. at 420 (“If . . . an exception to the

App.21a
FTCA shields the United States from suit, the plaintiff
may be left without a tort action against any party.”).
Plaintiffs may wish to pursue their claims for relief
against the remaining Defendants in state court.
CONCLUSION
For the reasons provided above, we AFFIRM the
district court’s order.

App.22a
JUDGMENT OF THE UNITED STATES COURT
OF APPEALS FOR THE SIXTH CIRCUIT
(SEPTEMBER 3, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
JOHN DOES 1–10,

Plaintiffs-Appellants,
v.
DEBRA HAALAND; ELIZABETH WARREN,

Defendants-Appellees.

________________________
No. 19-6347

On Appeal from the United States District Court
for the Eastern District of Kentucky at Covington.
Before: CLAY, WHITE, and READLER,
Circuit Judges.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED
that the district court’s dismissal of Plaintiffs’ action

for lack of subject matter jurisdiction is AFFIRMED.

App.23a
Entered by Order of the Court
/s/ Deborah S. Hunt
Clerk

App.24a
MEMORANDUM OPINION AND ORDER OF
THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF KENTUCKY
NORTHERN DIVISION AT COVINGTON
(NOVEMBER 5, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF KENTUCKY
NORTHERN DIVISION AT COVINGTON
________________________
JOHN DOES 1 THROUGH 10,

Plaintiffs,
v.
DEBORAH HAALAND, ET AL.,

Defendants.

________________________

Civil Action No. 2:19-00117 (WOB-CJS)
Before: William O. BERTELSMAN,
United States District Judge.
This matter is before the Court on various motions
to dismiss (Docs. 10, 26, 38, 39, 47, 50, 65), a motion
to remand by plaintiffs (Doc. 34), and a motion for
admission pro hac vice (Doc. 62). The Court has
reviewed these motions and concludes that oral argument is unnecessary.

App.25a
ANALYSIS
A.

Removal

The Court first notes that this matter was properly
removed by defendant Elizabeth Warren pursuant to
28 U.S.C. § 1442(a)(1), which provides, in part, that
any officer or agency of the United States may
remove an action from state court when sued “for or
relating to any act under color of such office.” This
statute is construed broadly and, where its requirements are satisfied, the right to removal is absolute.
Willingham v. Morgan, 395 U.S. 402, 405 (1969).
As a member of Congress, Warren is an “officer
of the United States.” See Hill Parents Ass’n v.
Giamo, 287 F. Supp. 98, 99 (D. Conn. 1968).
Second, in order to satisfy the “under color of
such office” requirement, Warren need only demonstrate a “causal connection” between her official position
and the claim against her. Willinghan, 395 U.S. at 409.
Here, it is abundantly clear that Warren’s statement
posted via her official Twitter account on a matter of
national interest—an incident on the National Mall
with perceived political ramifications—was meant to
communicate her position on the event as an elected
representative. See, e.g., Giamo, 287 F. Supp. At 100
(removal proper under 28 U.S.C. § 1442 as defendant
Congressman was acting under color of office when
making allegedly libelous statement to media).
Finally, Warren has asserted a colorable federal
defense of sovereign immunity, as next discussed.
Therefore, removal was proper, and plaintiffs’
motion to remand on this basis is not well taken.

App.26a
B.

Sovereign Immunity

Both Warren and defendant Deborah Haaland,
who is a United States Representative from New
Mexico, raise the defense of sovereign immunity to
plaintiffs’ claims against them.
It is axiomatic that the United States may not
be sued without its consent and that the existence of
consent is a prerequisite for jurisdiction. U.S. v.
Mitchell, 463 U.S. 206, 212 (1983). Sovereign immunity
“extends to agencies of the United States” or “federal
officers [acting] in their official capacities.” Whittle v.
United States, 7 F.3d 1259, 1262 (6th Cir. 1993).
On the other side of the sovereign immunity coin
is the Federal Tort Claims Act (FTCA). The FTCA
functions as a limited waiver to sovereign immunity.
F.D.I.C. v. Meyer, 510 U.S. 471, 475 (1994). In fact, if
acting “within the scope of employment,” the FTCA
is the exclusive remedy for claims against employees
of the United States. 28 U.S.C. § 2679(b)(1).
If the FTCA applies, then the plaintiff must first
exhaust administrative remedies before proceeding
against the defendant. 28 U.S.C. § 2675(a). The plaintiff
must first present their claim to the “appropriate
federal agency”; the plaintiff can then proceed after
six months have passed or if the claim is denied. Id.
The Federal Employees Liability Reform and Tort
Compensation Act, commonly known as the Westfall
Act, authorizes the Attorney General to certify that
the federal employee acted “within the scope of his or
her office or employment” at the time of the incident
giving rise to the claim. 28 U.S.C. § 2679(d)(1)-(3).

App.27a
If the Attorney General so determines, or a court
so determines after the Attorney General refuses to
certify, then the United States is substituted in as
the party-defendant and the federal employee is dismissed from the suit. Id. However, the United States
specifically did not waive sovereign immunity as to
several types of torts, including libel and slander. 28
U.S.C. § 2680(h). Thus, a plaintiff in this situation is
effectively without a remedy. See United States v.
Smith, 499 U.S. 160 (1991).
Thus, the crux of the issue for the applicability
of the FTCA is whether the party was acting within
the scope of her office or employment. For purposes
of the Westfall Act, a “determination of whether an
employee was acting within the scope of employment
is a question of law, not fact, made in accordance
with the law of the state where the conduct occurred.”
Henson v. National Aeronautics and Space Admin.,
14 F.3d 1143, 1147 (6th Cir. 1994); 28 U.S.C. § 1346(b)
(1) (“ . . . in accordance with the law of the place where
the act or omission occurred.”).
In Kentucky, “scope of employment” is a determination that focuses on the “motive of the employee
in determining whether he or she was acting within
the scope of employment.” Patterson v. Blair, 172
S.W.3d 361, 369 (Ky. 2005). The employee acts
within the scope of his employment when his “purpose, however misguided, is wholly or in part to further the master’s business.” Id. at 366. “Thus, if the
servant “acts from purely personal motives . . . which
[are] in no way connected with the employer’s interests,
he is considered in the ordinary case to have departed
from his employment, and the master is not liable.”

Id.

App.28a
The Kentucky Supreme Court has also held that
“to be within the scope of its employment, the conduct
must be of the same general nature as that authorized
or incidental to the conduct authorized.” Scottsdale
Ins. Co. v. Flowers, 513 F.3d 546, 566–67 (6th Cir.
2008) (quoting Osborne v. Payne, 31 S.W.3d 911, 915
(Ky. 2000)).
The Court concludes that the challenged statements by defendants Warren and Haaland—whether
one agrees with them or finds them objectionable—
are communications intended to convey the politicians’
views on matters of public interest to their constituents. As such, the statements were made within
the scope of defendants’ employment as elected representatives.
Courts from a variety of jurisdictions have so
concluded in similar circumstances. See, e.g., Wuterach
v. Murtha, 562 F.3d 375, (D.C. Cir. 2009); Williams
v. United States, 71 F.3d 502, 506-07 (5th Cir. 1995);
Chapman v. Rahall, 399 F. Supp. 2d 711, 714-15 (W.D.
Va. 2005); Council On American Islamic Relations,
Inc. v. Ballenger, 366 F. Supp. 2d 28, 31-32 (D.C.
2005); Operation Rescue Nat’l v. United States, 975
F. Supp. 92, 107-08 (D. Mass. 1997).
For these reasons, plaintiffs have failed to identify
any waiver of sovereign immunity for their claims
against defendants Warren and Haaland. These
defendants must therefore be dismissed.
C.

The Remaining Defendants

After reviewing the pending motions to dismiss
filed by defendants other than Warren and Haaland,
the Court concludes that it should decline to exercise

App.29a
its supplemental jurisdiction over the claims against
them.
Under the provisions of 28 U.S.C. § 1367(c), the
Court “may decline to exercise supplemental jurisdiction over a claim” if it “raises a novel or complex
issue of State law,” or if “the district court has dismissed all claims over which it has original jurisdiction.” 28 U.S.C. § 1367(c)(1), (3).
These motions raise unique issues of state law,
including application of the Kentucky long-arm statute
and state libel law. Further, given the early stage of
the proceedings, these matters are better left to the
state court where this Court no longer has any federal issues before it.
Therefore, having reviewed this matter, and the
Court being advised,
IT IS ORDERED that:
(1) The motions to dismiss by defendants Warren
and Haaland (Docs. 10, 38) motion (Doc. 27)
be and are hereby, GRANTED on the basis
that the claims against them are barred by
sovereign immunity under the Federal Tort
Claims Act;
(2) The remaining motions to dismiss (Docs. 26,
39, 47, 50, 65) be, and are hereby, DENIED
AS MOOT;
(3) Plaintiffs’ motion to remand (Doc. 34) be,
and is hereby, DENIED on the grounds
stated therein;
(4) The motion for admission pro hac vice (Doc.
62) be, and is hereby, DENIED AS MOOT;

App.30a
(5) The Court, pursuant to 28 U.S.C. § 1367(c)(1),
hereby DECLINES TO EXERCISE ITS
SUPPLEMENTAL JURISDICTION over the
remaining defendants; and
(6) This matter be, and is hereby, REMANDED
TO KENTON CIRCUIT COURT.
This 5th day of November 2019.
/s/ William O. Bertelsman
United States District Judge

App.31a
TWEETS
EXHIBIT A TO PLAINTIFF’S COMPLAINT

Exhibit G to Plaintiff’s Complaint

App.32a
Exhibit I to Plaintiff’s Complaint

Exhibit L to Plaintiff’s Complaint

App.33a
BRIEF OF PLAINTIFFS-APPELLANTS
(JANUARY 29, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
JOHN DOES 1–10,

Plaintiffs-Appellants,
v.
DEBRA HAALAND, ET AL.,

Defendants-Appellees.

________________________
No. 19-6347

On Appeal from the United States District Court
for the Eastern District of Kentucky
Robert E. Barnes
Barnes Law, LLP
601 S. Figueroa St., Ste. 4050
Los Angeles, CA 90017
Telephone: (310) 510-6211

Counsel for Plaintiffs-Appellants
Derek A. Jordan
Barnes Law, LLP
601 S. Figueroa St., Ste. 4050
Los Angeles, CA 90017
Telephone: (310) 510-6211

Counsel for Plaintiffs-Appellants

App.34a
STATEMENT IN SUPPORT OF ORAL ARGUMENT
Pursuant to Federal Rule of Appellate Procedure
and Sixth Circuit Rule 34(a), Plaintiffs-Appellants
hereby respectfully request oral argument on the
present appeal. This appeal raises issues of national
importance and statutory interpretation that will
impact millions of Americans, and a Democratic
presidential candidate.
STATEMENT OF JURISDICTION
The parties dispute whether the District Court
had subject matter jurisdiction over this case.
The Court of Appeals has subject matter jurisdiction over this case pursuant to 28 U.S.C. § 1291.
On November 5, 2019, the District Court issued a
Memorandum Opinion and Order granting dismissal
of Defendants Warren and Haaland. On December 3,
2019, Plaintiffs filed a timely Notice of Appeal with
the District Court.
STATEMENT OF ISSUE FOR REVIEW
Whether members of Congress are immune from
defamation liability merely because they were elected
to public office, when their tortious statements were
not made in Congress or as part of their Congressional
duties?
STATEMENT OF THE CASE
I.

Statement of Facts

A group of minor boys from Covington, Kentucky
visited Washington, D.C. on a school field trip. While
on their way back home from D.C. to Kentucky,
Defendant Senator Elizabeth Warren issued a tweet

App.35a
directed at the minor boys, that fed and led a social
media lynch mob against the minor boys that led to
threats of doxxing,1 violence, dismissal from school,
denial of admission to college, and scarlet-lettering their
reputations forever. (Amended Complaint, RE 34-3,
435, 473.) Warren directed this comment at a group of
minors she never met, in a state she does not represent,
about a situation she did not witness, concerning a
matter that was not pending before the Senate and that
was not in response to any media inquiry. Warren’s
actions led to calls for public punishment of the
Plaintiffs, including doxxing them, shaming them
publicly, and “punch[ing] them in the face.”
Plaintiffs’ defamation claims against Warren arise
from Warren’s statements on her Twitter account
that: “Omaha elder and Vietnam War veteran Nathan
Phillips endured hateful taunts with dignity and
strength, then urged us all to do better. Listen to his
words,” followed by a link to a Splinter News post
covering the incident, which identified the Plaintiffs
individually by image. (Amended Complaint, RE 343, 435, 473.) Warren’s statements were well known
by the friends, family and associates of each minor to
be about them individually. Indeed, the Plaintiffs
were individually identified as the subject of the
statements and received death threats, hate mail,
threatening phone calls and emails, and other personal
attacks on them each individually. The Plaintiffs were
known to be the subject of the statements complained
of herein as they were identified by photo image
throughout the world, and each of the statements
1 To “dox” is generally the threat or action of searching for and
publishing private or identifying information about a particular
individual on the Internet, typically with malicious intent.

App.36a
was interpreted by their friends, family and associates as about them personally.
Warren, a leading Democratic candidate for the
Presidency, used her prominent public stature to imply
the Plaintiffs engaged in morally abhorrent conduct.
Essentially, Warren accused the Plaintiffs of criminal
conduct, namely harassment as defined in Kentucky
law. Warren hid the factual basis of her opinion,
knowing her Presidential candidate status would
both imply credibility to her opinion, and imply the
facts she knew meant these kids had committed a crime
against a Native American elder (and purported
Vietnam War veteran). Critically, Warren omitted
the true facts, which cleared the minors of the very
claims she made against them. Warren’s false tweet
damaged Plaintiffs’ reputation in the form of death
threats, hate mail, threatening phone calls and emails
and other personal attacks on them each individually. (Ibid.) Warren refuses to retract, but instead
Warren claimed complete immunity as a member of
Congress.
Notably, Warren volunteered her statements on
social media. Warren did not make the statements in
the Senate or at the Senate. Warren’s statements did
not concern any matter pending before the Senate.
Warren was not responding to a press inquiry when
she made her statements. Warren was not answering
questions about herself when she made her statements.
Warren sent her statement to the entire world on
social media, and did not limit the audience that
received the message by any means available to her.
Warren sent the statement to individuals in Covington
and in Kentucky. Warren led the social media lynch

App.37a
job of these minor boys for national notoriety. Warren
is currently a candidate for the Presidency.
Defendant Deb Haaland, a United States Representative from New Mexico’s 1st Congressional district,
equally used her social media standing to attack
these minor boys. (See Amended Complaint, RE 34-3,
440, 471.) Haaland also omitted the true facts. Haaland’s conduct also contributed to the threats against
the minor boys, including doxxing, dismissal, denial
of college admission, and death threats. Haaland also
did not make her statements in the House, or at the
House, or about any matter concerning the House, or in
answering press inquiries, or at a press conference,
or about herself. Haaland also chose to make the
statement to the world, without limiting her statements to any group, and for national notoriety, not
for any act of Congress.
II.

Procedural History

Ten John Does filed suit against Warren and
Haaland, amongst other defendants, in state court in
Kentucky. Warren removed the action to federal court
in the Eastern District of Kentucky. Warren’s basis for
removal was her claim of federal immunity. Haaland
joined the removal. Plaintiffs opposed the removal,
and moved for remand. Warren also moved to dismiss
the action on grounds of immunity, which Haaland
joined. Both claimed all of their statements are
statements of the United States, and thereby enjoy
immunity from suit. Of note, the Attorney General
never certified that either defendant’s actions were
within the scope of their official duties, nor did either
defendant sue the Attorney General for a declaration
related thereto.

App.38a
The district court accepted removal, did not
remand the action to state court concerning Warren
and Haaland, dismissed both Warren and Haaland
on grounds of official immunity, and then remanded
the remainder of the claims against the other defendants to state court.
SUMMARY OF ARGUMENT
This case will decide one big question: is election
to Congress a license to libel?
The effect of the district court’s order is to grant
those elected to Congress a complete license to lie
and libel outside of any legislative duties and away
from the legislative chamber, concerning matters that
neither concern them, Congress, nor their constituents.
Get elected to Congress, and you can lie about your
business competitors, lie about your neighbors, lie
about your ex-wife, lie about anyone you want, anytime
you want, anyplace you want. Indeed, you would have
an exceptional edge in elections, because you could
libel anyone opposing you, but sue any opponent who
libels you. The law authorizes no such licentious
license.
Supreme Court precedent, sister state supreme
court precedent, and sound public policy all require
reversal.
ARGUMENT
Warren claims she is immune from her libels
because once she was elected to the Senate she
became a sovereign immune from suit for her tortious
conduct for anything she said about anyone at any
time in any place. Warren is wrong.

App.39a
Election to Congress is not a license to voluntarily,
gratuitously libel minor kids from Covington, Kentucky,
based on an event the defendant did not witness,
concerning kids the defendant did not know, that did
not involve a matter pending before Congress or concern the Congress members themselves, and was not in
direct response to a press inquiry. Importantly, leading
reputational lynch mobs on social media against kids
is not within the official duties of a member of Congress.
I.

Standard of Review

“We review a district court’s judgment on the
pleadings using the same de novo standard of review
employed for a motion to dismiss under Rule 12(b)(6).”
Boulger v. Woods 917 F.3d 471 (6th Cir. 2019) (citing
and quoting Fed. Deposit Ins. Corp. v. Amfin Fin.
Corp., 757 F.3d 530, 533 (6th Cir. 2014). On a motion
to dismiss under Rule 12, this Court must “construe
the complaint in the light most favorable to the
nonmoving party” and must also “accept the wellplead factual allegations as true.” Commercial Money
Ctr., Inc. v. Ill. Union Ins. Co., 508 F.3d 327, 336 (6th
Cir. 2017). A complaint states a “valid claim” if it
contains either “direct” or “inferential allegations”
under “some viable legal theory.” Commercial Money
Ctr., Inc. v. Ill. Union Ins. Co., 508 F.3d 327, 336 (6th
Cir. 2017). The district court also wholly ignored the
Supreme Court’s demand that any claim of immunity
from tort “beyond what is needed to protect legislative
independence” must “be closely scrutinized.” Hutchinson
v. Proxmire, 443 U.S. 111 (1979) (“Proxmire”).

App.40a
II.

Election to Congress Is Not a License to Libel
Anyone, Anywhere, Anytime

The Constitution already carefully balances the
need for risk-free speech made by members of Congress
in the halls of Congress and in their Congressional
duties as legislators. The statute already immunizes
public statements in response to press inquiries concerning their Congressional duties. Extending and
expanding Congressional immunity to anything they
say, anywhere, anytime, contradicts the Constitution
and exceeds the statutory immunity of their office.
A. The Westfall Act Should Be Read In
Conjunction with the Speech & Debate Clause
In 1988, the Supreme Court added a qualification
to judicially-crafted official immunity for the actions
of federal officials: the requirement the immunized
act be within the discretionary authority of the official.
Westfall v. Erwin, 484 U.S. 292 (1988). Congress reacted by passing a law named after the decision, the
Westfall Act, that removed that qualification, and
engrafted the court’s pre-Westfall judicially crafted
common law immunity into legislatively granted
statutory immunity. As subsequent courts and scholars
alike concurred, the law merely put the pre-Westfall
immunity case-law back into effect, and made it
legislation.
The law referenced all officers of the federal government in that capacity. At the time, Congress knew
the Supreme Court repeatedly ruled that members of
Congress were not immune from suit for tortious
libels made outside of their legislative duties or the
legislative chamber. Congress made no reference to this
issue at all in the statute or its legislative history,

App.41a
nor is there any evidence anyone intended to reverse
precedent that in the statute. The statute did not
even expressly reference members of Congress at all.
Yet, the defendants below insisted Congress actually did something radically different: made election to
Congress a license to libel anyone you wanted, any
time you wanted, in any place you wanted, without
limit of place, person or subject. Nothing in the legislative history justifies their claim. The plain language of the statute does not even mention members of
Congress. This expansive interpretation of the statute
conflicts with the Constitutional limits on speechbased immunity for members of Congress.
Under defendant’s theory, any statements made
by a member of Congress are acts of the United States.
Indeed, under the defendant’s theory they identify no
limits to the immunity for tortious conduct that
defames others. Even if the statute is read to immunize
members of Congress for their Congressional speech,
it should be read in conformity with the case-law the
Act intended to reinstate: speech outside of Congress
is only immune from suit if it would be immune under
the Speech and Debate Clause. The Supreme Court
expressly applied the Speech Clause limitations on
immunity to their judicially-crafted federal “official
duty” immunity analysis for members of Congress.
A scattering of cases outside this Circuit extended
immunity only to a few acts outside of Congress: 1)
answering questions from the media, and 2) concerning
pending matters before Congress or issues about the
Congressmen themselves. In the cases relied upon by
the defendants and the court below, the conduct was
during regular work hours in response to a reporter’s
inquiry about matters within their authorized duties.

App.42a
Responding to questions about their job has been the
only category of claims found immune from tortious
libels outside of legislative duties or the legislative
chamber.
Expanding immunity without express statutory
direction to do so contradicts our precedents concerning
immunity, and the statutory interpretation related
thereto. The Supreme Court made clear that a “statute
must be read in harmony with general principles of
tort immunities and defenses rather than in derogation
of them” and discouraged redefining the scope of
immunity based on some claim a statute “somehow
eliminated” the scope of immunity law “by covert
inclusion in the general language” of a statute. Rehberg
v. Paulk, 566 U.S. 356, 361-362 (2012) (internal citations and quotations omitted). After all, courts must
assume Congress is familiar with existing case-law
on immunity, and intended to include them and continue them, absent express language to the contrary.
Rehberg v. Paulk, 566 U.S. 356, 362 (2012).
Constitutional issues arise if the Westfall Act is
interpreted to contradict both the Speech & Debate
Clause, as well as contradict the pre-Westfall jurisprudence it presumably reinstated. “Legislatures may
not of course acquire power by unwarranted extension
of privilege.” Tenney v. Brandhove, 341 U.S. 367, 376
(1951). ‘“The tyranny of the legislatures is the most
formidable dread at present and will be for long years.’’’
Id., at 375 n. 4, quoting Thomas Jefferson.
Could, for example, Congress pass laws making
themselves immune from criminal prosecution for all
time? Tolerating this power in light of the fact that
no one in the 100th Congress that passed the Westfall
Act even knew, since the legislative record contains

App.43a
not a trace, that Congress was being endowed with a
license to libel?
B. The Limits of Immunity From the Speech &
Debate Clause
Consider the contradiction of the lower court’s
decision: members of Congress can libel private citizens
at will, but members of Congress can sue any private
citizen they think libeled them. The Speech & Debate
Clause carefully balanced these interests by limiting
immunity to statements made in a legislative capacity
or made in the legislative chambers. Election to Congress is not a roaming license to libel.
To that end, the Supreme Court long ago rejected
election to Congress as a license to libel. See Hutchinson
v. Proxmire, 443 U.S. 111 (1979) (“ Proxmire ”). A
quartet of cases reinforced this principle. See e.g.,
Hutchinson v. Proxmire, 443 U.S. 111 (1979) (“Proxmire ”);
Doe v. McMillan, 412 U.S. 306, 324 (1973) (“McMillan”);
United States v. Brewster, 408 U.S. 501, 512 (1972)
(“Brewster ”); Gravel v. United States, 408 U.S. 606
(1972) (“Gravel ”).
The Chastain opinion of the D.C. Circuit thoroughly examines all precedent on the issue of official
immunity (including the roots of that doctrine set
forth in English common law), as well as the public
policy as elucidated in that precedent. Chastain v.
Sundquist, 833 F.2d 311 (D.C. Cir. 1987) (“Chastain”).
Chastain concludes that the statements by Congress
member Sundquist were not covered by the Speech
and Debate Clause or the Official Immunity Doctrine:
When [members of Congress] move beyond
the requirements of their legislative respons-

App.44a
ibilities, they do so as volunteers, and at their
own risk, however important their myriad
other activities may be in the texture of
contemporary political life . . . .Elected representatives, in the deepest sense, represent
the people. Beyond the necessary privileges
granted by the Constitution to legislators,
the people ought not to be immunized against
themselves.
(Chastain, supra, 833 F.2d at 328.)
Warren’s personal comments on social media
about minors simply waiting for a bus on the steps of
the Lincoln Memorial were not “part of the legislative
function or deliberations that make up the legislative
process” in the Senate. Warren’s statements were
blatant personal attacks, on minors outside her state,
for events for which she had no personal knowledge,
and that did not concern any matter pending before
the Senate. Getting elected to the Senate is not a
license to lie, libel and lead a public lynch mob against
a group of minors.
The court noted that the scope of official immunity
could not be separate from the Speech and Debate
Clause. In Chastain, the court thoroughly examined
the Official Immunity Doctrine, in the context of a
Congress member’s statements to the press about the
plaintiff. In doing so, the Chastain court observed
“... the pivotal point that the question of congressional
common law immunity for libel cannot be considered
independently of the Speech or Debate Clause”
(Chastain, supra, 833 F.2d at 317.) In fact, “the
Supreme Court in two modern cases expressly supports
the principle of congressional liability for defamation
arising outside the ambit of the Speech or Debate

App.45a
Clause. [citing Proxmire, 443 U.S. at 123-33 and Doe
v. McMillan, 412 U.S. 306, 311-25 (1973)]” Id. at 316.
In this regard, the Supreme Court stated:
“The business of Congress is to legislate;
Congressmen and aides are absolutely
immune when they are legislating. But when
they act outside the sphere of legitimate
legislative activity, they enjoy no special
immunity from local laws protecting the good
name or the reputation of the ordinary citizen.”

Doe v. McMillan, 412 U.S. 306, 324 (1973) (“McMillan”).
All applicable precedent on the issue establishes
that defamatory statements made outside of legislative
activities or functions simply do not immunize Congressmembers. (Chastain, supra, 833 F.2d 311; see also
Proxmire, supra, 443 U.S. at 123-33; McMillan, supra,
412 U.S. at 324; United States v. Brewster, 408 U.S.
501, 512 (1972).) The Court took note of this:
“The authors of our Constitution were well
aware of the history of both the need for the
privilege and the abuses that could flow from
two sweeping safeguards. In order to preserve
other values, they wrote the privilege so that
it tolerates and protects behavior on the part
of Members not tolerated and protected when
done by other citizens, but the shield does not

extend beyond what is necessary to preserve
the integrity of the legislative process.”

Hutchinson v. Proxmire 443 U.S. 111, 127 (1979).
This conforms to the most respected scholastic
treatises on the subject. J. Story, Commentaries on the

App.46a

Constitution § 863, p. 329 (1833); see also L. Cushing,
Elements of the Law and Practice of Legislative
Assemblies in the United States of America 604, p. 244

(1st ed. reprint 1971). “Therefore, although a speech
delivered in the house of commons is privileged, and the
member cannot be questioned respecting it elsewhere;
yet, if he publishes his speech, and it contains libel-

ous matter, he is liable to an action and prosecution
therefore, as in common cases of libel.” J. Story,
Commentaries on the Constitution § 863, p. 329 (1833)
(emphasis added).

The Supreme Court repeated and reaffirmed this
rule of law in successive precedents. Doe v. McMillan
412 U.S. 306, 311-25 (1973); Gravel v. United States.
“A Member of Congress may not with impunity publish
a libel from the speaker’s stand in his home district.”
Doe v. McMillan. Why? “The reason is that republishing a libel under such circumstances is not an essential
part of the legislative process and is not part of that
deliberative process ‘by which Members participate in
committee and House proceedings.’’’ Doe v. McMillan.
“A speech by Proxmire in the Senate would be
wholly immune and would be available to other
Members of Congress and the public in the Congressional Record. But neither the newsletters nor the
press release was “essential to the deliberations of the
Senate” and neither was part of the deliberative
process.” Hutchinson v. Proxmire 443 U.S. 111, 130
(1979).
The district court, while ignoring these Supreme
Court precedents, relied upon an argument expressly
and explicitly rejected by the Supreme Court:

App.47a
“The other sense of the term, and the one
relied upon by respondents, perceives it to
be the duty of Members to tell the public
about their activities. Valuable and desirable
as it may be in broad terms, the transmittal
of such information by individual Members
in order to inform the public and other
Members is not a part of the legislative
function or the deliberations that make up
the legislative process.”

Hutchinson v. Proxmire 443 U.S. 111, 133 (1979).
The jurisprudence of the Speech and Debate
Clause constitutionally constrict the contours of
immunity Congress can afford itself. As the Court
reiterated in Gravel: “This Court has not hesitated to
sustain the rights of private individuals when it
found Congress was acting outside its legislative
role.” Gravel v. United States, 408 U.S. 606 (1972)
(“Gravel”).
C. Libeling Minor Children on Social Media &
Leading a Social Media Lynch Mob Is Not
Acting within the Scope of a Congress member’s
Duty
This case poses unprecedented questions of
unprecedented scope: whether a defendant sued in
their individual capacity for their unofficial conduct
taken outside their duties and away from their office,
is still immune from suit when the Attorney General
refuses to certify their conduct as official acts of the
United States. Additional reasons exist to reject
immunity in this case: the fact the case was pending
at the pleadings stage of the case when the nature of
Kentucky law makes the scope of employment a

App.48a
question typically for the jury, given the role motive
has in the scope of employment analysis. Independent
thereof, fellow federal courts in analogous intentional
torts occurring outside the place of employment reject
immunity just as sister state courts reject immunity
in near identical circumstances of legislators claiming
immunity for acts taken outside of the legislative
duties and away from their legislative office. Courts
concur: election to the legislature is not a license to
gratuitously libel, on matters outside of legislative
duties and when away from the legislative chamber,
and when not in response to specific press inquiry.
i. No Presumption of Official Action Applies
When the Attorney General Never
Certified Defendants’ Conduct Was an
Official Government Act
The Westfall Act provides for the Attorney
General to substitute the United States for an employee
when the employee acted for the United States. See
28 U.S.C. § 2679. That did not occur here. The Attorney
General here did not certify that either Congressperson
defendant was acting on behalf of the United States
when they used their social media accounts to defame
kids. In the cases relied upon by the defendants and
district court below, those courts emphasized that
the Attorney General in both cases certified the
conduct was official, thus the standard of review was
much more differential, and the burden shifting
different than here. The district court’s opinion below
failed to note this critical distinction.

App.49a
ii. The Issue of the Scope of Duty Should
Not Have Been Decided at the Pleading
Stage
Generally speaking, whether an act was within
the scope of the duty of employment depends on
questions best decided by a jury, not at the pleading
stage of the case. As this is a matter of Kentucky law,
it provides useful guidance: “The issue of whether the
statements were made within the scope of Dr. Shah’s
agency such that they could give rise to vicarious
liability was a factual one for the jury.” Williams v.
Seven Counties Services, Inc. 2015 WL 2445509, at
*7 (Ky. Ct. App., May 22, 2015).
iii. Kentucky Law Discourages Immunity
for Intentional Torts
The district court’s order also overlooked that
Kentucky law disfavors including intentional torts
within the scope of employment. “Spalding’s and
Wathen’s alleged actions qualify as intentional torts
under Kentucky law and are therefore generally
considered outside the scope of their employment.
See id. at 51–52 (scope of the employment issue turns
primarily on whether behavior was intentional); see
also Booker v. GTE. net LLC, 214 F.Supp.2d 746, 749–
50 (E.D.Ky.2002) (applying four factors for scope of
employment question, but noting “as a general rule,
intentional torts are deemed to fall outside the scope
of employment”).” Young v. U.S. Dept. of Agriculture,
2011 WL 4543083, at *6 (W.D. Ky., Sept. 28, 2011).
iv. Kentucky Law Focuses on Motive
The district court’s order also overlooked the role
of motive in determining issues of scope of employment

App.50a
in Kentucky, which is why the issue is usually reserved
for the jury, not decided at the pleading stage of the
case. The applicable Kentucky law requires consideration of the employee’s motive. Kenney v. Harvey, 2009
WL 395775 (E.D. Ky., Feb 17, 2009). As this Circuit
reiterated, in “determining whether an employee’s
action is within the scope of employment, Kentucky
courts consider the following factors: (1) whether the
conduct was similar to that which the employee was
hired to perform; (2) whether the action occurred substantially within the authorized spatial and temporal
limits of the employment; (3) whether the action was
in furtherance of the employer’s business; and (4)
whether the conduct, though unauthorized, could have
been anticipated in view of the employee’s duties.”
Coleman v. U.S., 91 F.3d 820, 823–24 (6th Cir. 1996).
“The focus of the court in determining scope-ofemployment issues should be on the employee’s motive
for his conduct.” Patterson v. Blair, 172 S.W.3d 361,
369 (Ky. 2005). Indeed, “we have, with few exceptions,
focused on the motive of the employee in determining
whether he or she was acting within the scope of
employment.” Patterson v. Blair 172 S.W.3d 361, 369
(Ky. 2005). Without doubt, “[w]here the conduct of
the servant is unprovoked, highly unusual, and quite
outrageous, there has been something of a tendency
to find that this in itself is sufficient to indicate that
the motive was a purely personal one . . . ” Patterson
v. Blair 172 S.W.3d 361, 371 (Ky. 2005).
Kentucky law is clear that a statement is only
within the scope of employment if it “was engaged in
furthering his employer’s business or interests, without
any deviation by the employee to a pursuit of his own
business or interest . . . . ” Wood v. Southeastern Grey-

App.51a

hound Lines, 302 Ky. 110, 194 S.W.2d 81, 83 (1946).

If an employee deviates from the employer’s business, for however short of a time period, to do acts
which are not connected with the employer’s business, the relationship is suspended and the employee
is not acting within the scope of his employment.

Collins v. Appalachian Research and Defense Fund
of Kentucky, Inc. 409 S.W.3d 365, 369 (Ky. Ct. App.

2012). Indeed, the defendant must have been engaged
in activity that furthered the employer’s business or
interests, without deviation by the employee “to pursue
her own personal benefit.” Collins v. Appalachian
Research and Defense Fund of Kentucky, Inc. 409
S.W.3d 365, 370 (Ky. Ct. App. 2012). “A principal is
not liable under the doctrine of respondent superior
unless the intentional wrongs of the agent were
calculated to advance the cause of the principal or
were appropriate to the normal scope of the operator’s
employment.” Patterson v. Blair 172 S.W.3d 361, 368
(Ky. 2005). “Ordinarily, an employer is not vicariously

liable for an intentional tort of an employee not
actuated by a purpose to serve the employer.” Patterson
v. Blair, 172 S.W.3d 361, 369 (Ky. 2005). As the
Kentucky Supreme Court held:

“And now, in collating these authorities and
principles, it seems clear to us that in order
to hold an employer responsible to a third
person for the tortious act of an employee of
the former, such act must have been committed while the employee was engaged in
furthering his employer’s business or interests, without any deviation by the employee
to a pursuit of his own business or interest,
and there must have been a general similar-

App.52a
ity between the tortious act committed and
the usual, ordinary, everyday acts commonly
pursued by the employee in prosecuting the
regular routine of his employment.”

Patterson v. Blair (Ky. 2005) 172 S.W.3d 361, 368
How is it “furthering the interest” of the United
States for the defendants gratuitously to use social
media to libel minor kids concerning a matter that
did not concern either pending legislation or them
personally? How isn’t the defendants’ conduct “deviation by the employee to pursuit of [their] own business
or interest”? How is libeling minor children and leading
social media lynch mobs “the usual, ordinary, everyday
acts commonly pursued by the employee in prosecuting
the regular routine of his employment”? It isn’t.
Reverse.
v. Federal Decisions in Comparable Contexts
Deny Immunity
A judge is immune from suit for actions taken in
his judicial capacity; that is not a license for the
judge to go on his social media and libel someone. An
attorney is immune from suit for actions taking in
advocating for a client in court proceedings under the
litigation privilege; that is not a license for the attorney to go on his social media and libel someone. Even
the President has been sued for defamation for statements he made on social media.
Federal courts find comparable intentional tortious
conduct outside the protections of immunity. See e.g.,
Bergeron v. Henderson, 47 F.Supp.2d 61 (D. Me. 1999);
Jamison v. Wiley, 14 F.3d 222 (4th Cir. 1994); Mobley
v. Coby, 1996 WL 250655 (D. Md. 1996); Baggio v.

App.53a

Lombardi, 726 F.Supp. 922 (E.D.N.Y. 1989); Allstate
Ins. Co. v. Quick, 254 F.Supp.2d 706 (S.D. Ohio 2002);
Greene v. Rubin, 1997 WL 535893 (E.D. Pa. 1997);
Counts v. Guevara, 328 F.3d 212 (5th Cir. 2003);
McHugh v. University of Vermont, 966 F.2d 67 (2d Cir.
1992); Nadler v. Mann, 951 F.2d 301 (11th Cir. 1992);
Melo v. Hafer, 1992 WL 396816 (E.D. Pa. 1992).
In the only cases to expand immunity beyond
the scope of the Speech & Debate clause, the courts
emphasized the statements at issue were in response
to press inquiries, and notably not “made gratuitously”
to serve personal political interests. Operation
Rescue Nat. v. U.S., 975 F.Supp. 92, 108 (D. Mass
1997). Courts implicitly rejected that acts meant to
enhance popularity, increase fundraising, or improve
candidacy are not the official duties of a member of
Congress. Operation Rescue Nat. v. U.S., 975 F.Supp.
92, 108 (D. Mass 1997).
There is no precedent for what happened herevoluntarily using social media to libel a bunch of kids
on a matter not concerning legislation or the legislator.
vi. Sister State Courts Deny Immunity in
Comparable Contexts
Sister state supreme courts concur. In order for
immunity to apply, it must be the case that “the
legislator was engaged in a legislative function when
he or she spoke.” Cooper v. Glaser 228 P.3d 443 445
(Mont. 2010). “Whatever imprecision there may be in
the term “legislative activities,” it is clear that nothing
in history or in the explicit language of the Clause
suggests any intention to create an absolute privilege
from liability or suit for defamatory statements made
outside the Chamber.” Hutchinson v. Proxmire 443

App.54a
U.S. 111, 127 (1979). “The immunities of the Speech
or Debate Clause were not written into the Constitution
simply for the personal or private benefit of Members
of Congress, but to protect the integrity of the legislative
process by insuring the independence of individual
legislators.” Hutchinson v. Proxmire 443 U.S. 111, 127
(1979).
The first source for guidance about the duties of
Members of Congress must be the United States
Constitution, which provides, in Article 1 § 1: “All
legislative Powers herein granted shall be vested in a
Congress of the United States, which shall consist of
a Senate and House of Representatives.” What about
voluntarily, gratuitously libeling a bunch of minor
kids from Covington, Kentucky on social media outside
of the Senate or House constituted part of the “legislative powers” of either defendant? Is leading social
media lynch mobs a duty of Congress?
Immunity must track the function it is intended
to protect. Rehberg v. Paulk, 566 U.S. 356, 364 (2012).
Hence, a witness is not immune for statements they
make when not acting as a witness. Rehberg v. Paulk,
566 U.S. 356 (2012); see also Toker v. Pollak, 376
N.E.2d 163 (NY App. 1978). The duty of a member of
Congress is not roaming commentary on social media
concerning minor children.
Federal courts find intentional tortious conduct
often outside the protections of immunity. See e.g,
Bergeron v. Henderson, 47 F.Supp.2d 61 (D. Me. 1999);
Jamison v. Wiley, 14 F.3d 222 (4th Cir. 1994); Mobley
v. Coby, 1996 WL 250655 (D. Md. 1996); Baggio v.
Lombardi, 726 F.Supp. 922 (E.D.N.Y. 1989); Allstate
Ins. Co. v. Quick, 254 F.Supp.2d 706 (S.D. Ohio 2002);
Greene v. Rubin, 1997 WL 535893 (E.D. Pa. 1997);

App.55a

Counts v. Guevara, 328 F.3d 212 (5th Cir. 2003);
McHugh v. University of Vermont, 966 F.2d 67 (2d Cir.
1992); Nadler v. Mann, 951 F.2d 301 (11th Cir. 1992);
Melo v. Hafer, 1992 WL 396816 (E.D. Pa. 1992).

Publishing defamatory statements online was not
part of an official duty warranting immunity. Becker
v. Kroll, 2009 WL 3181977 (D. Utah 2009). Statements made by a prosecutor that “did not address his
official duties”, were not immune. Del Fuoco v. O’Neill,
2011 WL 601645 (M.D. Fla. 2011).

Sister state courts throughout this Circuit concur
for decades of undisturbed case-law. See e.g., Miller v.
Wyatt (Tenn. Ct. App. 2014) 457 S.W.3d 405; Janiszewski v. Belmont Career Center (Ohio Ct. App. 2017)
86 N.E.3d 613; Domestic Linen Supply & Laundry
Co. v. Stone, 314 N.W.2d 773 (Mich. 1981).
Sister courts across the country concur. See e.g.,
Sanchez v. Coxon, 854 P.2d 126 (Ariz. 1993); Grady
v. Scaffe, 435 So.2d 954 (Fla. App. 1983); Williams v.
School Dist., 447 S.W.2d 256 (Mo. 1969); Blair v.
Walker, 349 N.E.2d 385, 389 (Il. 1976); Gugliotta v.
Wilson, 168 A.D.3d 817 (N.Y. App. Div. 2019); Clark v.
Jenkins, 248 S.W.3d 418 (Tex. Ct. App. 2008); Hillman
v. Yarbrough, 936 So.2d 1056 (Ala. 2006); Anderson
v. Hebert 830 N.W.2d 704, 708, (Wis. Ct. App. 2013);
Schroeder v. Poage, 707 P.2d 1240 (Oreg. App. 1985).
Isle of Wight County v. Nogiec, 704 S.E.2d 83 (Va.
2011); Mehau v. Gannett Pacific Corp. 658 P.2d 312
(Ha. 1983).
Court after court constricted legislators’ immunity
to legislative functions, with a focus on the context
of the statement, including especially the location.
Sanchez v. Coxon, 854 P.2d 126 (Ariz. 1993); Grady
v. Scaffe, 435 So.2d 954 (Fla. App. 1983); Williams v.

App.56a

School Dist., 447 S.W.2d 256 (Mo. 1969); Domestic
Linen Supply & Laundry Co. v. Stone, 314 N.W.2d
773 (Mich. 1981). Immunity has only been extended
when the subject matter was indisputably and
incontrovertibly “legitimately related to matters committed to his responsibility.” Blair v. Walker, 349
N.E.2d 385, 389 (Il. 1976). Libeling minor kids who
are private citizens on social media is not a legislative
function at a legislative location.

Courts routinely decline immunity claims where
the defendant tried to shield libel behind an official
proceeding or their duties when their comments
relate to neither by either subject or place. Gugliotta
v. Wilson, 168 A.D.3d 817 (N.Y. App. Div. 2019)
“Absolute immunity should not be extended to members
of city council, where there is no pending legislation
relating to the subject matter of the alleged defamation
and where the publication is beyond the legislative
forum; instead, statements made other than in a
legislative session or related meeting should be afforded
a qualified privilege.” Janiszewski v. Belmont Career
Center 86 N.E.3d 613 (Ohio Ct. App. 2017). “Legislative
privilege does not give a member of a subordinate
legislative body the right to use his or her position as
a forum for private slanders against others.” Miller v.
Wyatt 457 S.W.3d 405 (Tenn. Ct. App. 2014). A legislator “cannot claim a legislative privilege before a
body that is not legislating.” Anderson v. Hebert 830
N.W.2d 704, 708 (Wis. Ct. App. 2013). There can be
no immunity where the legislator’s statement was
not made in legislative capacity. Isle of Wight County v.
Nogiec, 704 S.E.2d 83 (Va. 2011). Statements made
outside of legislative session not concerning pending
legislation were not protected statements. Clark v.

App.57a

Jenkins, 248 S.W.3d 418 (Tex. Ct. App. 2008). State-

ments outside of legislative function are not immune
from suit even though made by a legislative official.
Hillman v. Yarbrough, 936 So.2d 1056 (Ala. 2006).
No immunity for legislative comments outside of
legislative functions. Meyer v. McKeown, 641 N.E.2d
1212 (Ill. App. 1994).
Immunity is limited by time and place of publication when it concerning legislative officials. Schroeder
v. Poage, 707 P.2d 1240 (Oreg. App. 1985). But every
kind of public business is not potentially a subject for
legislation by the people; it must be legislative in
character. Adamson v. Bonesteele 671 P.2d 693, 701
(Oreg. 1983). Thus, where an allegedly defamatory
remark came in a speech delivered to a group of
Windward Oahu businessmen by a lawmaker whose
constituency resided in Waikiki and Kapahulu, his
remarks were not immune. Mehau v. Gannett Pacific
Corp. 658 P.2d 312 (Ha. 1983). Where there was no
pending legislation relating to subject matter of alleged
defamation and where publication is beyond legislative forum, an absolute privilege should not be
extended to members of local governing bodies.
Costanzo v. Gaul, 403 N.E.2d 979 (Ohio 1980); see
also Stafney v. Standard Oil Co., 299 N.W. 582, 583
(Ohio 1941). “The publication of a resolution of a city
council attacking the character of a private citizen is
not within the scope of the official authority of the
city council, and hence is not privileged.” Trebby v.
Transcript Pub. Co., 76 N.W. 961, 961 (Minn. 1898).
Kentucky law follows the same: statements made
at legislative proceedings while “performing legislative
duties” limit the scope of immunity for slander.
Smith v. Martin, 331 S.W.3d 637 (Ky. App. 2011).

App.58a
One of the seminal decisions in this area of the
law was in the very state of the lead defendant. The
sister state court there denied immunity, noting the
statement was made concerning a subject that “was
not then under consideration, was not before the
house” and additionally was not made in the legislative
chamber as the “defendant was not in his place, did
not address the house, nor the speaker... and being
wandering from his place and duty, forfeited, for the
time, his claim of privilege.” Coffin v. Coffin 4 Mass.
1, 16–17 (Mass. 1808).
In this unprecedented claim of unprecedented
immunity, this court should follow the guidance of
the analogous decisions of the Speech and Debate
Clause, or any of the many state and federal court
decisions simply applying official immunity analysis,
and reject the extraordinary claim that election to
Congress is a license to libel.

App.59a
CONCLUSION
For the foregoing reasons, the minor Doe Plaintiffs
request that the Court of Appeals reverse the District
Court’s dismissal of Defendants Warren and Haaland
and be directed to remand all defendants to the state
court where the matter is currently pending.
Respectfully submitted,
/s/ Derek A. Jordan
601 S. Figueroa St., Ste. 4050
Los Angeles, CA 90017
Tel: (310) 510-6211
Fax: (310) 510-6225
derekjordan@barneslawllp.com

Counsel for Plaintiffs-Appellants
/s/ Robert E. Barnes
Barnes Law, LLP
601 S. Figueroa St., Ste. 4050
Los Angeles, CA 90017
Tel: (310) 510-6211
Fax: (310) 510-6225
robertbarnes@barneslawllp.com

Counsel for Plaintiffs-Appellants
January 29, 2020

